                             UNITED STATES OF AMERICA
                    FEDERAL LABOR RELATIONS AUTHORITY
                     OFFICE OF THE INSPECTOR GENERAL
                                WASHINGTON, D.C. 20424-0001


                                   November 2006

SUBJECT: Internal Review of Federal Labor Relations Authority (FLRA) Administrative
Instructions.

METHODOLOGY: This Internal Review was conducted by the Federal Labor Relations
Authority Inspector General in compliance with Government Auditing Standards. It
included the FLRA Inspector General’s objective and independent review of current
FLRA administrative instructions as well as instructions cancelled in 2003 to determine
if they need to be reissued. This internal review also involved Inspector General
research into related Executive Orders, Congressional regulations and some external
Federal Agency policies to ensure that the FLRA was functioning properly and in
compliance with Federal requirements.

REFERENCES:          Executive Orders, Congressional references and FLRA instruction
references listed with each of the reviewed FLRA instructions (including 2003 cancelled
instructions) were reviewed as part of this review.

BACKGROUND: The FLRA has previously created required Federal administrative
policies in the format of instructions or regulations to support and ensure proper
management of FLRA’s administrative programs and compliance with Federal
requirements. The FLRA Office of the Executive Director has had the administrative
responsibility to address Federal policy requirements from its onset in l978. Until the
current administration, all created and updated policies were reviewed and commented
on by all senior and line managers in the three components of the FLRA before the
instruction were issued. All instructions were then issued to all FLRA managers to
ensure that employees were aware of changes and requirements. Starting in 2000,
FLRA instructions were placed on the FLRA intranet and were accessible on line by
FLRA employees. The majority of instructions were entered on the FLRA intranet by
Information Resource Management in 2001. During 2004 the previous Director, Policy
and Performance Management, who is now the current Executive Director created and
placed 4 new instructions on the FLRA intranet. Previously, the FLRA Office of the
Executive Director reviewed all FLRA. Instructions every five to seven years and
updated and revised or cancelled FLRA instructions as necessary and informed all
managers and employees of all relevant actions.

The FLRA Administrative Services Division had the responsibility to maintain the
Instruction system and to make sure that all instructions were electronically available
through the intranet site developed by the FLRA’s Information Resource Division. In FY
2002, the previous Assistant Executive Director reviewed and recommended the
updating of FLRA instructions, as necessary. None of this was done.

In 2003, 54 FLRA instructions were cancelled and provided to the Office of Solicitor
prior to his Acting Executive Director appointment. The former Solicitor stated that he
had no recollection of being involved with these cancelled instructions and stated his
Deputy Solicitor handled this issue along with the former Human Resource Director.
Both the previous Deputy Solicitor and former Director of Human Resources stated that
they had no recollection of being involved with canceling the instructions. The Director,
Administrative Services Division, who has the authority to maintain instruction files, was
not even aware of the cancellation of 54 instructions in FY 2003.

The Office of Solicitor Attorney who prepared the list of cancelled instructions in the
Office of the Solicitor stated that this administrative assignment was conducted
internally in the Office of the Solicitor as part of updating material that might be needed
for legal advice or reference. This attorney worked with the Office of Solicitor paralegals
to update their office Instruction books. Most of the cancelled instructions were related
to human resource management, or administrative programs which were implemented
in the 1980s and l990s and required updating. The attorney stated that before the
update was finalized, the attorney met with the former Director of Human Resources
and Assistant Executive Director who affirmed that her list of cancelled instructions was
correct. The current FLRA Executive Director stated she was unaware of the cancelled
instructions until informed about it by the Inspector General in 2006 and did not
previously cancel them.

The former FLRA Solicitor was not yet the Acting Executive Director at the time the
Office of the Solicitor was updating its FLRA instructions. Both the former FLRA
Solicitor and Deputy Solicitor stated that they had no recollection of being involved with
the cancelled instructions. The former FLRA Director, Human Resource had no
recollection of providing the list of cancelled instructions to the Office of the Solicitor.
This former Director of Human Resource Division stated that the only instruction he
became involved with was the Performance Management System Plan which was
issued in l999. This former FLRA Director, Human Resource Division stated that the
Chairman, FLRA requested that he revised the Performance Plan instruction to
eliminate the pass/fail performance appraisal concept for FLRA managers. The former
Director, Human Resource Division stated he revised this instruction and submitted it to
the Chairman prior to his leaving the FLRA for another Federal job. The former
Assistant Executive Director who conducted a review of all FLRA Instructions stated
that he only recommended the cancellation of three or four instructions. He stated he
definitely did not recommend the cancellation of 54 FLRA Instructions.

During 2004, the Director of Policy and Performance Management, (who is the current
FLRA Executive Director) created 4 instructions which addressed administrative issues
of management concern.) The current FLRA Executive Director stated that the new
instructions created were reviewed by managers who would be affected by the



                                             2
instruction prior to their implementation. The FSIP Representative stated that the
Chairman, FLRA had consulted and communicated with the FSIP Component Head and
Representative regarding some instruction matters and that several updated
instructions were issued to them. The FLRA General Council did not receive or review
any new instructions since her appointment to her job.

Under the current administration, the FLRA eliminated the independence of the three
FLRA components (Authority, Office of General Counsel and Federal Services Impasse
Panel) and created one entire organizational entity. As a result, the Office of General
Council and Federal Service Impasse Panel managers lost their independent authority
to administer administrative operations their own way and became required to adhere to
compliance with FLRA administrative programs in one overall FLRA manner. This
change did not cause any improper adherence to Federal regulations and requirements
but did require FLRA instructions to be revised to have all components comply with
administrative requirements in one concise manner rather than separately and
independently. This current Inspector General review of FLRA instructions revealed
that there are still existing instructions (not cancelled) that have not been updated to
eliminate the FLRA’s previous component’s independent administrative authority and
management, or their recently contracted instruction specialists need to review all
instructions to identify which should be permanently cancelled and which should be
updated.

INTERNAL CONTROLS: The FLRA is currently in a vulnerable position relating to
administrative requirements because most of the cancelled instructions have not been
re-created over the past two years. A significant number of cancelled instructions
reviewed by the Inspector General contained appropriate information and could have
been updated very easily rather then cancelled to ensure the proper administrative
support for addressing the FLRA’s capability of performing the FLRA’s mission,
maintaining a proper Agency human capital program, and supporting proper cost
effective internal controls.

At the onset of this internal review in June 2006, 48 instructions were online and
considered active. However, 20 of these instructions did not have the required
signature of an Executive Director. Six currently listed instructions were listed on the
2003 Office of Solicitor’s cancelled instruction list (in bold print below) and 5 additional
instructions were pending.)

FEDERAL LABOR RELATIONS AUTHORITY CURRENT INSTRUCTIONS:

Title/Instruction/Date:                                               Signature on File:

Administrative Control of Funds                                              Yes
2520.1B
07/16/84




                                             3
Administrative Grievance System                 Yes
3820.1
08/01/86

Advanced Pay                                    N/A
3570
Pending

Alternate Work Schedule                         Yes
3640
10/01/95

Attorney Recruitment and In-Service Placement   No
Also on 2003 Cancellation List
3302
03/11/99

Audit and Internal Review Follow-up             Yes
2930.2
11/08/99

Audit Policies and Procedures                   Yes
2920.1
01/19/99




Career Transition Assistance Plans              No
Also on 2003 Cancellation List
3303.1
03/11/99

Competitive Service and In-Service Placement    No
3300
03/11/99




                                      4
Contingency Plan for Shutdown of Operations in the Absence   Yes
of Appropriations
1910.2
09/22/95

Debt Collection Procedures                                   Yes
2790
12/29/86

Drug Free Workplace Plan                                     Yes
3880.1A
05/27/97

Electronic Mail                                              Yes
6910
04/30/02

Employee Discipline & Adverse Actions                        Yes
3752
09/02/98

Employee Training & Development                              No
3410.1
01/30/98

Equal Employment Opportunity/ADR Addendum                    No
3700.1B
10/10/02


Executive Resources Board                                    No
3317.1
02/09/04




                                         5
Financial Management Systems                       Yes

6/02/88
02/15/00

Flexi place Pilot Program                          Yes
3650
08/09/00

Fraud Prevention Program                           Yes

6120.1
10/07/98

Gainshairing Travel Savings Awards Pilot Program   Yes

3800
7/1/2000

Government Contractor-Issued Travel Charge Cards   No
1501.2
5/12/04

Injury Compensation                                Yes
3861
06/04/84

Inspector General Assistance & Hotline Program     Yes
6130.1
12/01/98

Instructions System                                Yes
1320.2
10/22/91




                                         6
Internet Access                                         Yes
6920
04/30/02

Leave Administration                                    No
3630.1A
02/13/86

Leave Transfer Program                                  No
3630.2
10/10/93

Management Control Systems                              Yes
1311.2
05/01/97

Nonexpendable Personal Property Management Program      Yes
4200.1A
06/30/88 (Draft)

Occupational Safety & Health Program                    Yes
1810
07/17/98

Official Flag & Seal of FLRA                            Yes
1010.1A
12/20/00

Overtime Compensation & Compensatory Time               Yes
3551
02/28/98

Performance Management System Plan (General Schedule)   No
3430.2A
10/22/99




                                       7
Permanent Change of Station (PCS) Travel and Allowances         No
1540
03/10/04

Policies and Procedures for Conducting Investigations by        Yes
Office of Inspector General
6110.1
01/19/99

Position Classification                                         No
3511
02/15/00
Position Management                                             No

3501.1
02/15/00

Probationary Periods for Supervisors and Management Officials   No
On 2003 cancelled list
2/13/86
3470.1A
02/15/00

Permanent Change of Stations and Allowances                     No
1540
3/10/2004

Procedures for Filing Financial Disclosure Reports              Yes
6410.1
07/19/00

Procedures for Foul Weather and Other Emergencies               No
Bulletin 99-04
12/24/98




                                           8
Procurement Policy and Procedures                        Yes
4410.1B
01/14/98

Professional Liability Insurance                         N/A
3860
Pending

Reasonable Accommodation                                 N/A
3890
Pending



Records Management Program                               Yes
1323.1
03/13/86

Reduction-in-Force in the Senior Executive Service       No
3351.1
01/27/84

Reduction-in-Force, Transfers of Function, & Furloughs   No
for over 30 days
3350.2
10/03/86

Security Program                                         Yes
1600.1A
08/08/84

SES Performance Management Plan                          No
On 2003 Cancelled list
3431.2
02/01/97




                                          9
Student Educational Employment and Student Volunteer   No
Service Programs
3311.2
08/24/98

Transportation Subsidy Program                         N/A
1570
Pending

Travel Management Center Program                       Yes
1501.1
08/09/89

Use and Maintenance of Imprest Funds                   Yes
2780.1B
09/20/88

Use of Government Telephone Systems                    Yes
1740.1
04/05/88

White House & Congressional Correspondence Control     Yes
1322
03/10/86

Within Grade Increase and Quality Salary Increases     Yes
On 2002 Cancelled List
6/02/82
3560
02/15/00




                                       10
The following FLRA instructions were cancelled in FY 2003 and have not been officially
reissued. Those in bold print are also listed as current FLRA instructions.


  FEDERAL LABOR RELATIONS AUTHORITY 2003 CANCELED INSTRUCTIONS



Instructions Implemented                                 Title
             Date
1010.1       10/18/82            Official Flag and Seal of the Federal Labor Relations
1030.1       6/29/81             Delegation of Authority-Information Resources
                                 Management
1100.1        3/1/81             Organization and Functions
1128.2        12/1/81            Decision Development Process
1311.1        8/8/86             Management Control Systems
1320.2        10/22/91           FLRA Instruction System
1322          3/10/86            White House Congressional Correspondence Control
                                 Procedures
1323.1        3/13/86            Records Management Program
1331.1        10/1/8             Procuring Printing Systems
1501.1        8/9/89             Diners Club Government Charge Card Program
1600.1A       8/4/84             Security Program
1740.1        4/5/88             Use of Government Telephone System Programs
2301.1        6/2/88             Financial Management System
2520.1B       7/16/84            Administrative Control of Funds
2780.1B       9/20/88            Use and Maintenance of Imprest Funds- (Should
                                 not be reissued)
2790          12/29/86           Debt Collection Procedures for Salary Offset
2920.1        12/16/91           Audit Policies and Procedures
2930.1        3/31/92            Audit Follow-Up
3300          12/27/97           Competitive Service and In-Service Placement
3301.2        5/19/86            Executive Resources Board
3302          12/27/97           Attorney Recruitment and In-Service Placement
3303.1        3/11/98            Career Transition Assistance Plans
3317          1/14/98            Executive Resources Board
3320.1        2/11/81            Part Time Employment Program
3340.1A       2/14/86            Merit Staffing
3341.1A       2/13/86            Upward Mobility
3410          1/30/98            Employee Training and Development
3430.2        2/20/87            Performance Management System Plan
3431.1        12/20/91           SES Recertification Plan

3431.2        2/1/97             SES Performance Appraisal and Awards
3450          4/11/86            Incentive Awards Program


                                          11
3470.1A       2/13/86            Probationary Periods for Supervisors and
                                 Management Officials
3501.1        6/10/81            Position Management
3510.1        6/10/81            Position Classification
3530.1        6/27/83            Overtime Compensation and Compensatory Time
3550.2        2/14/86            Performance Management Recognition System



3560.1        6/1/82             Within-Grade Increase and Quality Salary
                                 Increases
3601.1        3/6/83             Time and Attendance Reporting and Distribution of
                                 Payroll Checks and Bonds
3610          8/8/91             Sick Leave for Adoptive Parents
3630.1A       2/13/86            Leave Administration
3700.1A       4/11/86            Equal Opportunity Employment
3705          6/4/84             Affirmative Action for Disabled Veterans
3710          6/4/84             Affirmative Action for Hiring, Placement, and
                                 Advancement of Handicapped Individuals
3710.1        8/1/81             Multi-Year Affirmative Action Plan
3810.1        2/13/86            Employee Discipline
3820.1        8/1/86             Administrative Grievance System
3830.1        2/19/86            Adverse Actions and Performance Based Actions
3850.1        11/3/82            Employee Separation Procedures
3861          6/4/84             Injury Compensation
3880          10/93              FLRA Drug-Free Workplace Plan
4200.1A       6/30/88            FLRA Non-Expendable Personal Property
                                 Management Program
4410.1A       6/30/88            Policies and Procedures for Conducting
                                 Investigations by the Office of the Inspector General
3410.1        8/22/94            Procedures for Filing Financial Disclosures Report

FLRA Instruction Policy

In October, 2006 the FLRA Executive Officer hired contractor consultants who have
begun to initiate internal controls and create new, up to date, Human Resource
Instructions for the FLRA.

Although the FLRA instruction Policy, FLRA 1320.2 is listed on the FLRA website
instruction list, it also is on the FLRA 2003 cancelled instruction list. The FLRA
Instruction policy states that while other agency offices could recommend changes of
FLRA Instructions, revisions could only be made by the originating FLRA office. It also
stated that any FLRA instruction requiring extensive revisions must be treated as a new
issuance.




                                          12
The FLRA Instruction Policy also states that FLRA Instructions are cancelled by the
promulgation of notification specifically identifying the FLRA Instruction to be cancelled
by the originating office. It also stated that FLRA instructions could be cancelled by a
replacement instruction or by using the Record of Coordination and Approval FLRA
Form 113 informing all offices of the cancellation. It stated that FLRA Instructions could
only be approved for implementation and cancellation by the FLRA Executive Director
and this decision was required to be documented. Such a document does not exist.

The FLRA Instruction Policy was created to issue official communication to all offices
within the FLRA and replace a system designated previously as a Directive System.
The policy also authorized the Executive Director of the Authority, the Deputy General
Counsel and the Executive Director of the Federal Service Impasses Panel to sign
FLRA Notices for their respective components related to handling unique business
pertaining only to that component. The FLRA Instruction Policy also stated that all
proposed FLRA Instructions should be issued to the Chairman, the Authority Members,
the Office of General Council’s General Council and FSIP Chairman at least 2 days
prior to being issued and. coordinated with all FLRA agency offices. After all responses
(with comments) are received and incorporated if appropriate, the Executive Director is
required to sign the instruction and use the date of approval as the date of
implementation. Instructions created in 2004 were not created according to this policy,
nor was any new Instruction policy issued relating to the current process for creating
new policy.

The current status of FLRA instructions is not administratively correct and is a risk for
the entire Agency. A new intranet Human Resource and Performance Management
Website contains a list of specifically related instructions. Those indicated by bold print
were on the list of 2003 cancelled instructions. FLRA Conduct Policy, listed under EEO,
is not an instruction but is policy and contains appropriate information. The list of
Agency instructions) listed on the intranet could not all be accessed. There were nine
out of twenty Human Resource Instructions, one SES instruction and four Inspector
General Instructions that could be opened. It did not appear that any of these opened
instructions had been updated. Other instructions under this Agency Policy including
General Operations, EEO, Ethics, Finance and Procurement and Information
Technology and Telecommunications could not be accessed (June 22, 2006).

                                   FLRA Instructions

GENERAL OPERATIONS

1.    Contingency Plan for Shutdown of Operations in the Absence of Appropriations
2.    Instructions System
3.    Management Control Systems
4.    Nonexpendable Personal Property Management Program
5.    Official Flag & Seal of FLRA
6.    Procedures for Foul Weather and Other Emergencies
7.    Records Management Program



                                            13
8.    Security Program
9.    White House & Congressional Correspondence Control

EEO

1.    Equal Employment Opportunity/ADR Addendum
2.    FLRA Conduct Policy

ETHICS

1.    Procedures for Filing Financial Disclosure Reports

Finance and Procurement

1.    Administrative Control of Funds
2.    Advanced Pay
3.    Debt Collection Procedures
4.    Financial Management Systems
5.    Government Travel Charge Cards
6.    Gainsharing Travel Savings Awards Pilot Program
7.    Permanent Change of Station (PCS) travel and Allowances
8.    Procurement Policy and Procedures
9.    Transportation Subsidy Program
10.   Travel Management Center Program

HUMAN RESOURCES

1.    Administrative Grievance System
2.    Alternate Work Schedule
3.    Career Transition Assistance Plans
4.    Competitive Service and In-Service Placement
5.    Drug Free Workplace Plan
6.    Employee Discipline & Adverse Actions
7.    Employee Training & Development
8.    Flexi place Pilot Program
9.    Leave Administration
10.   Leave Transfer Program
11.   Occupational Safety & Health Program
12.   Overtime Compensation & Compensatory Time
13.   Performance Management System Plan (General Schedule Employees)
14.   Position Classification
15.   Position Management
16.   Probationary Periods for Supervisors and Management Officials
17.   Reasonable Accommodation
18.   Reduction-in-Force, Transfers of Function, & Furloughs Over 30 Days
19.   Student Educational employment and Student Volunteer Service Programs



                                         14
20.    Within Grade Increase & Quality Salary Increases

INFORMATION TECHNOLOGY & TELECOMMUNICATIONS

1.    Electronic Mail
2.    Internet Access
3.    Use of Government Telephone Systems

INSPECTOR GENERAL

1.    Audit and Internal Review Follow-Up
2.    Audit Policies and Procedures
3.    Fraud Prevention Program
4.    Inspector General Assistance & Hotline Program
5.    Policies & Procedures for Conducting Investigations by Office of Inspector
      General

SES

1.    Executive Resources Board (ERB)
2.    Performance Management Plan
3.    Professional Liability Insurance
4.    Recertification
5.    Reduction-in-Force

UAE

1.    FLRA-UAE Agreement

FACTS:

FLRA Instruction Policy (FLRA 1320.2) was issued on October 22, 1991 and was
signed by a former Executive Director. It was placed on the 2003 Cancellation list. No
revised policy was created for the creation/revision of FLRA instructions even though a
Policy and Performance Management Position was created and filled to create/update
FLRA policy.

In FY 2002, the former Assistant Executive Director issued a review of all FLRA
instructions to the Executive Director to make sure that all instructions were updated
and current prior to being put on line. FLRA Instructions were placed on the FLRA
intranet approximately 2000 to 2003. This 2002 Instruction Review Report conducted
by the previous Assistant to the Executive Director was provided to the former FLRA
Executive Director and Director of the Administrative Services Division who had the
responsibility for maintaining the Instruction System. Draft instructions provided to the
Chairman, FLRA for approval during this period were not included in the 2002
document.


                                           15
In FY 2003, 54 instructions, (Including the FLRA Instruction Policy) were cancelled
according to a project conducted in the Office of Solicitor. 34 of the cancelled polices
related to Human Resources. Neither the former FLRA Solicitor and Deputy Director
had a recollection of being involved in this action, The Office of Solicitor employee who
was involved in creating the list stated that the former Director, Human Resource
Division affirmed her list of cancelled instructions to the former Solicitor. This review
indicated that neither the former Acting Human Resource Director, former Assistant
Executive Director, former Solicitor nor current Executive Director were aware that so
many instructions were cancelled. The Director, Administrative Services Division who is
responsible for maintaining files related to instructions was also unaware of the
cancellation of 54 policies in 2003. Neither FLRA line management/supervisors nor
FLRA employees were informed that instructions had been cancelled. The majority of
these cancelled instructions have not yet been revised and reissued.

According to the FLRA Executive Director, the following 4 new instructions have been
approved and implemented. The FLRA Executive Director stated that prior to
implementation, the four new instructions issued in 2004 were submitted to appropriate
managers for comments which were noted and incorporated (when proper) prior to
approval and implementation

1.    Executive Resource Board
2.    Permanent Change of Station Allowances
3.    Government Contractor Issued Travel Charge Cards
4.    Position Classification and Position Management.

The only instruction accessible on line in June, 2006 was the Executive Resource
Board. According to the FLRA Executive Director, The Position Classification and
Position Management instructions were currently being created. The Permanent
Change of Station Allowances was on the new FLRA website but was not accessible.
The Government Contractor Issued Travel Card policy was also non accessible. The
2004 Position Classification and Position Management Instruction were not on the new
Policy, Human Resource and Performance .website site. The other three 2004
instructions were on line and were accessible. In November 2006, the total new
website was non accessible.

The current FLRA Executive Director stated that the following instructions were in the
process of being updated/revised.

1.    Purchase Cards
2.    Professional Liability Insurance
3.    Performance Management Appraisal for GS Employees
4.    Reasonable Accommodation
5.    Management Control System

FLRA’s General Counsel who was appointed to the FLRA at the end of 2005 stated that
she is reviewing and revising previous Office of General Counsel manuals which require



                                           16
updating and revision. The current Member of the Authority has not received or
commented on any new instructions.

The Director, Administrative Services Division stated that in 2003 and 2004, she drafted
4 instructions related to her responsibilities which were submitted to her previous
supervisor, the previous Acting Executive Director/Solicitor also with a copy to the
Director of Policy and Management Performance), but these instructions were never
issued. The Director, Administrative Services Division stated the subject matter of
these instructions was: related to:

1.    Convenience Checks
2.    Update to Personal Property
3.    Ratification of Purchases.
4.    Purchase Card Program

The Director, Administrative Services Division’s current job still relates to keeping
copies of all instructions issued for the FLRA. The Director, Administrative Services
Division was not aware that 54 instructions were cancelled in 2003 and had not
reviewed her list of instructions with those listed on the FLRA website.

In 2005, the FLRA Chief Information Officer/Director of Information Resource
Management created 10 new Information Security instructions and submitted them to
the current Executive Director for approval. They have not yet been approved and
therefore have not been implemented. These instructions included:

1.    Agency Contingency Planning
2.    Data Backups
3.    Incident Reporting
4.    Security Program Plan
5.    Security Program Policies and Procedures
6.    User Account Control
7.    Segregation of Duties
8.    Security Awareness Training
9.    Systems Development Life Cycle and Change Control
10.   Acceptable Use of Information Resources

In June, 2006, the FLRA Inspector General (IG) submitted Office of Inspector General
(OIG) Instructions which were created in l998 and now were updated, plus an additional
new instruction related to the Inspector General’s authority to contract. These
instructions are:

1.    FLRA Office of Inspector General Audit Policy and Procedures
2.    FLRA Office of Inspector General Fraud Prevention Program
3.    FLRA Office of Inspector General Assistance and Hotline Program




                                          17
   4.     FLRA Office of Inspector General Policy and Procedures for Conducting
          Investigations
   5.     FLRA Office of Inspector General Contract Services Instruction

   The fact that there is no current accessible policy related to the requirements for
   creating FLRA instructions, and there is currently a vacant Policy and Management
   Performance position, the authority for the creation, revision, updating or canceling
   existing FLRA instructions is being handled by the current FLRA Executive Director with
   assistance from her staff and contracted consultants. The fact that 54 policies have
   been cancelled and not re-created over the past three years is a serious problem for
   FLRA management as well as employees. The fact that Instruction policy no longer
   adheres to the current FLRA environment and has not been recreated for the past three
   years is a significant weakness and Human Capital deficiency. The FLRA instruction
   policy should be created immediately prior to other instructions being recreated or
   updated to reflect current instruction requirements.

   The majority of FLRA employees were unaware of cancelled and new instructions and
   most of them stated that they were not informed when instructions were cancelled or
   when new instructions and policies were created. Even most of the instructions
   currently on line in the FLRA website are over 5 years old and many instructions date
   back to the 1980s.

1. The FLRA website contained 48 instructions which are considered active. 20 of these
   on line instructions do not have the required signature of the former or current Executive
   Director Six of these instructions were listed on the FY 2003 Instruction Cancellation
   List as well as on-line as part of FLRA’s current Instructions. These instructions are:



   1.  FLRA Instruction 3303.1, Career Transition Plans
   2.  FLRA Instruction 3330, Competitive Service and In-Service Placement
   3.  FLRA Instruction 3302, Attorney Recruitment and In Service Placement
   4.  FLRA Instruction 3470.1A Probationary Periods for Supervisors and
       Management Officials
   5. FLRA Instruction 3431.2 SES Performance Management Plan
   6. FLRA Instruction 3560.1, Within Grade Increase and Quality Salary
      Increases

   The FLRA Executive affirmed that there will be updates/revisions to existing instructions
   and that there may be new instructions relating to the following administrative programs:

   1.     Internal Controls
   2.     Privacy of Personal Information
   3.     Succession Activities
   4.     Training Programs/Activities


                                               18
5.    Human Resource Accountability System
6.    Acquisition Activities
7.    Finance and Budget Activities

Conclusions:

The fact that the FLRA is a labor management adjudicatory agency for the Federal
government should make it essential for management to conduct its administrative and
management operations properly and precisely. The fact that the current FLRA
management program is not related to FLRA instructions stating Federal requirements
and does not involve line management or FLRA UAE input is not illegal but is not a
proper action in the 21rst century.

Federal instructions should be reviewed, updated, or cancelled (especially if the Federal
requirement or program has been eliminated) every 5 to 7 years or when new Federal
administrative regulations are approved by Congress. Canceling instructions because
they are not current or comprehensive is not improper. However, a revised or new
instruction should be re- issued within a reasonable period (within a year). It is improper
for an Agency to function without required and credible policies for over 2 or 3 years.

 Although there is no specific requirement for reissuing cancelled instructions, in order
to support Human Capital and the proper administration of procedures, a new
instruction should be issued as quickly as possible and certainly within a year of the
cancellation of instructions related to Federal administrative programs. The FLRA
Executive Director should maintain the authority for approving new and updated
instructions as well as canceling instructions no longer applicable to Federal
requirements and provide this information to management as well as employees. Since
the FLRA’s Instruction Policy no longer adheres to the current FLRA environment it
must be recreated prior to all other instructions being revised or recreated.

Because so many human resource instructions (38) were cancelled in 2003 and not
replaced, the FLRA Human Resource Division became subject only to senior level
management designated requirements, some of which were not supported by previous
or, even more important, current Federal Human Resource requirements. Both FLRA
line managers and employees had very few Human Resource policies over the past
three years that they could refer to for performance or adhere to Human Resource
requirements. Some employees felt they were improperly micromanaged and their
capabilities diminished.

20 of the FLRA instructions provided by the Human Resources Division to the FLRA
Inspector General primarily written or updated between 1998 and 2003 did not contain a
signature of the former Acting Executive Director or current Executive Director
Although most of these l998-2003 administrative instructions contained policy that
complied with current Executive and Federal requirements, they cannot be considered
implemented because they are neither signed or affirmed as implemented by an
Executive Director.



                                            19
The current FLRA Executive Director should focus on updating or having new and
proper administrative instructions created for the FLRA either by qualified
administrative managers or external contractors within this next year so that FLRA
complies with Federal regulatory policies and procedures. All such instructions should
be sent to all FLRA senior and line managers for comments, and should be signed by
the current FLRA Executive Director when finalized prior to issuance

Most FLRA line managers and employees contacted by the FLRA Inspector General
were unaware of cancelled and new instructions issued in 2004. In spite of an
extensive search by the FLRA Inspector General to try to find out who actually
cancelled the 54 FLRA instructions in 2002, the Inspector General was unable to find
out who actually cancelled them.

The FLRA Union President, FLRA Members and managers as well as all employees
should be informed at the time instructions become implemented or cancelled (same
day approved/implemented by the FLRA Executive Director.)

Management focus on programs and policies is essential for a successful Federal
Agency. The current FLRA management focuses on organizational restructure without
a similar focus on updating and creating Agency policy has had a negative effect on the
FLRA’s mission. The fact that the current Executive Director is now focusing on this
issue is good but it could have been focused on in 2004 by the same individual who was
the Director of Policy and Management for the FLRA. Now, FLRA Management needs
to focus on sharing its new policy, sources and methods will all employees and make
sure that it develops a strategic alliance with other Federal agencies as well as its own.

Findings and Recommendations:

Finding 1:
A significant amount of FLRA administrative instructions are way overdue for updating
and/or revision even though they were reviewed in 2002 by a previous FLRA Assistant
Executive Director. 54 FLRA Instructions were cancelled in 2003 without informing
FLRA employees 34 of these 2003 cancelled policies were related to Human Resources
and the other 20 pertained to FLRA administrative requirements for FLRA employees.
These cancelled instructions included FLRA’s Instruction policy for creating and revising
FLRA administrative instructions.
Recommendation: 1
1a.    The FLRA Executive Director should immediately create a new instruction for
creating FLRA administrative instructions.

1b.   The FLRA Executive Director should immediately review the cancelled policies
and have necessary replacement policies issued as quickly as possible.




                                           20
1c.    The FLRA Executive Director should address the review, updating and/or
revising all FLRA administrative instructions issued over 5 to 7 years ago, especially
those related to Human Resources, Contracting and Procurement, and Financial
Statements/Budget/Accounting.

1d.     When FLRA instructions are cancelled or revised and new instructions are
implemented and placed on (or removed from) the FLRA internet website, the FLRA
Executive Director or designated employee should inform or e-mail these occurrences
to all FLRA employees

Finding 2:
20 FLRA Instructions which are listed as active did not have an Executive Director
signature affirming their implementation.
Recommendation 2:
The FLRA Executive Director should immediately review all current instructions and
sign or attach a signature to all instructions not signed by previous Executive Directors.

Finding 3:

There are currently 6 instructions on the FLRA website that were cancelled in 2003.
These are:

1.    FLRA Instruction 3303.1, Career Transition Plans
2.    FLRA Instruction 3330, Competitive Service and In-Service Placement
3.    FLRA Instruction 3302, Attorney Recruitment and In Service Placement
4.    FLRA Instruction 3470.1A Probationary Periods for Supervisors and
      Management Officials.
5.    FLRA Instruction 3431.2 SES Performance Management Plan
6.    FLRA Instruction 3560.1, Within Grade Increase and Quality Salary Increases

Recommendation 3

The FLRA Executive Director should review the 6 listed instructions that are on the
FLRA website and cancellation list. If they are acceptable as current policy, remove
them from the cancellation list. If they should be cancelled, remove them from the
FLRA instruction website.
.




                                           21
